           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    TRAINING AND DEVELOPMENT OF
  HEARING OFFICE GROUP SUPERVISORS

   December 2012       A-12-12-11240




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM


Date:      December 10, 2012                                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Training and Development of Hearing Office Group Supervisors (A-12-12-11240)


           OBJECTIVE
           Our objective was to determine whether the Office of Disability Adjudication and Review
           (ODAR) provided group supervisors (GS) with sufficient training to maintain their
           requisite skills and successfully perform their duties as first-line supervisors.

           BACKGROUND
           At the end of Fiscal Year 2011, ODAR had 417 GSs working at over 160 hearing
           offices. The GS is responsible for ensuring timely processing of hearing cases,
           supervising and mentoring staff, and supporting hearing office managers. The GS
           works as a first-line supervisor for hearing office personnel, including senior attorneys,
           decision writers, and technicians. 1

           In August 2006, a training cadre developed a new three-phase training program for
           GSs. Under ODAR’s Leadership and Management Training program, which is one of
           the Commissioner’s initiatives to reduce the hearings backlog, GSs undergo classroom
           instruction, participate in on-the-job and video training, and work with mentors. The
           cadre designed the training program to allow new and tenured GSs to remain current on
           such topics as electronic business processes, disability policies, hearing procedures,
           and personnel management. ODAR’s Office of the Chief Administrative Law Judge is
           responsible for developing and implementing the GSs training program. 2




           1
             See Appendices B and C for a hearing office organization chart and the position description and training
           requirements for each staff position supervised by a GS, respectively.
           2
             Before 2006, GSs attended a 2-week general training program SSA developed to teach the day-to-day
           knowledge and skills new SSA supervisors, including new ODAR supervisors, needed to manage both
           the workload and the people.
Page 2 - The Commissioner


The GS training phases are as follows.
      •   Phase One: On-the-job orientation and video-on-demand (VOD) training.
      •   Phase Two: On-the-job training, online training, and mentoring.
      •   Phase Three: 1 week each of classroom and online training.
To meet our objective, we interviewed ODAR managers at Headquarters and GSs at
the Norfolk, Virginia, Hearing Office to understand ODAR’s process for planning,
delivering, and recording GS training. As part of our methodology, 3 we conducted a
nation-wide electronic survey. In May 2012, we emailed a questionnaire to 417 GSs to
obtain their views on the quality, timing, and usefulness of the training as well as their
satisfaction with their training. 4 We also asked the GSs to evaluate the training the
hearing office staff received. Finally, we emailed a questionnaire to 164 hearing office
directors (HOD) to learn their views on the GS training. 5

RESULTS OF REVIEW
Of the GSs who responded to our questionnaire, 84 percent stated they were
sufficiently trained to perform their duties or were still participating in the three-phase
training. However, 16 percent felt they needed additional training, citing a need for
training in such areas as labor and employee relations, performance management, and
management information. All but 1 percent of the GSs had prior Agency experience
before accepting a GS position, though about 72 percent had been in their GS position
for less than 5 years. About 96 percent of the HODs who responded to the
questionnaire stated the GSs in their offices were sufficiently trained.

Between 89 and 97 percent of the GSs who responded to the questionnaire were
generally satisfied or did not state dissatisfaction with all phases of the three-phase
training program (see table below). In addition, about 76 percent of the GSs stated the
three-phase training program met their expectations, and approximately 66 percent said
ODAR provided the training at the right time. However, 42 percent of the GSs stated
they did not have enough time for on-the-job training while performing their managerial
duties. The questionnaire responses highlighted other training issues, such as
communication and support, which may be of interest to ODAR managers as they plan
future training activities.

                Responses to the Three-Phase Training Questions                    Percent
     Satisfied or did not state dissatisfaction with Phase One                       97
     Satisfied or did not state dissatisfaction with Phase Two - online training     94
     Satisfied or did not state dissatisfaction with Phase Two - mentoring           89
     Satisfied or did not state dissatisfaction with Phase Three                     95


3
    See Appendix D for a further discussion of our scope and methodology.
4
    We used ODAR staffing data as of January 2012.
5
    See Appendix E for a copy of the GS and HOD questionnaire.
Page 3 - The Commissioner


STATUS OF GS SKILLS AND TRAINING

Of the 269 GSs who responded to our questionnaire (a 65-percent response rate),
227 (84 percent) responders stated they had received sufficient training to perform their
duties or were still participating in the three-phase training (see Table 1). The remaining
16 percent replied that they did not receive sufficient training. Later in this report, we
discuss additional training the GSs believed they needed to be more effective in their
positions.

                 Table 1: GS Responses on Trained to Perform Duties
                                     (269 Responses)
                                Responses                                 Percent
            Sufficient Training                                              66
            Still Undergoing Three-Phase Training Program                    18
            Not Sufficiently Trained                                         16
            Total                                                           100

Position Before Becoming a GS

Of the 269 GS respondents, about 99 percent 6 had prior SSA experience before
accepting a GS position, with 165 responders (61 percent) having worked in ODAR (see
Figure 1). As a result, the vast majority of the new GSs already had at least a basic
understanding of SSA’s mission and programs.

                               Figure 1: GS Prior Experience
                                       (269 Respondents)

                                                1%

                         38%




                                                                    61%

             ODAR (61 percent)       SSA - Not ODAR (38 percent)        Other (1 percent)




6
  Responding GSs did not always answer every question. For example those GSs who had not taken the
three-phase instruction could skip certain questions because this training did not pertain to them.
Page 4 - The Commissioner


While the overwhelming majority had previous SSA experience, we learned that
72 percent had less than 5 years’ experience as a GS (see Figure 2). About 12 percent
had 10 or more years’ experience.

                        Figure 2: Years of Experience in GS Position
                                            (269 Respondents)


     60%
                                       51%
     50%

     40%

     30%
                      21%
     20%                                               16%
                                                                        10%
     10%
                                                                                         2%

       0%
                 <1 Year         >1Year -        >5Years -       >10Years -        >15Years
                                 <5Years         <10Years         <15Years
                                             Number of Years

Of the 252 GSs providing information on their former positions, about 52 percent was
formerly decision writers 7 at hearing offices (see Table 2). Another 14 percent had
experience as SSA operations managers, 8 with the remainder holding a variety of other
positions, including technical experts, disability specialists, management and program
analysts, and other SSA operations personnel.




7
 Decision writers work in hearing offices nationwide and are responsible for drafting legally sufficient
decisions for the ALJ.
8
 Operations supervisors manage Social Security field offices where people apply for a Social Security
number card as well as disability and retirement benefits. The positions require knowledge of Social
Security law and regulations as well as SSA policies and procedures.
Page 5 - The Commissioner


                                 Table 2: Previous Positions of GSs
                                           (252 Respondents)
                Title                    Number of Respondents                  Component
    Paralegal Specialist1                          65                             ODAR
    Attorney Advisor1                              41                             ODAR
    Senior Attorney Advisor1                       15                             ODAR
    Decision Writer                                10                             ODAR
    Technical Expert                               9                               SSA
    Operation Supervisor                           35                              SSA
    Other2                                         77                              SSA
    Total                                         252
Note 1: The position relates to decision writing in the hearing office.
Note 2: Other positions include, but are not limited to, disability specialist, program and management
analyst, and operations personnel.

Additional Training Needs

Our questionnaire provided the GSs a list of eight training areas they could select to
identify additional training needs 9 and asked them to identify any other areas. Of the
respondents, 65 percent selected labor relations and 53 percent chose employee
relations as areas requiring additional training (see Table 3). Labor management
training covers a wide range of labor-management and employee relations issues,
including union bargaining, conflict and dispute resolution, disciplinary and adverse
actions, and union-management agreements. 10 Some of the other areas selected by
more than one-third of the respondents included performance management
(40 percent), management information training (36 percent), and the Electronic
Business Process (35 percent). 11




9
    We created this list in consultation with ODAR training professionals.
10
  The following four unions represent ODAR bargaining unit employees: (1) The Association of
Administrative Law Judges, which is a part of the International Federation of Professional and Technical
Engineers; (2) The National Treasury Employees Union, which comprises two groups of employees—
Chapter 224 and another Multi-Regional group, (3) The American Federation of Government Employees
(AFGE); and (4) The National Federation of Federal Employees, which represents only a small group of
employees in Cincinnati, Ohio.
11
   The Electronic Business Process is the standardization of the core business process designed for use
in hearing offices to process electronic disability folder cases.
Page 6 - The Commissioner


                      Table 3: Additional Training Requested by GSs
                                      (269 Respondents)
                                                   Number of
                                                 Respondents                    Percent of Total
                Training Areas                    Requesting                     Respondents
                                               Additional Training1
 Labor Relations                                       174                              65
 Employee Relations                                    143                              53
 Performance Management                                108                              40
 Management Information                                98                               36
 Electronic Business Process                           93                               35
 Equal Employment                                      73                               27
 Transitional Leadership for Supervisors2              63                               23
 Systems Security                                      32                               12
Note 1: Respondents were allowed to choose more than one category.
Note 2: This 5-day national program known as “Nuts and Bolts” training takes place in a traditional
classroom setting. The course topics are leadership, teambuilding, conflict management, diversity,
accountability, creativity, innovation, and communication.

We also asked the GSs to name the training courses they had taken that benefited
them the most. Their top three responses were
     •   Decision writer training program, 12
     •   Transition to Leadership, and
     •   Performance management.

Over 80 percent of the GSs stated they discussed their training needs with their HODs,
noting other parties they periodically consulted, such as the Hearing Office Chief ALJ
and other GSs. About 13 percent of the GSs said they did not discuss their training
needs with anyone.

HOD SATISFACTION WITH GS TRAINING

Of the 116 HODs who responded to our questionnaire (a 71-percent response rate),
about 96 percent was satisfied or did not state dissatisfaction with the training the GSs
received. Of these HODs, 94 (81 percent) stated that they had at least 1 GS who
participated in the GS three-phase training program, and about 80 percent thought the
training assisted their GSs in performing their duties. In addition, about 82 percent of
the HODs thought the three-phase training was timely. We discuss the three-phase
training program in the next section.

About 97 percent of the HODs reported they met with the GSs to discuss their training
needs. Moreover, the HODs agreed with the GSs about additional training needed and
stated more labor and employee relations training would improve GS competencies.


12
  GSs manage the decision writer’s workload, which requires that they assign and monitor their work and
ensure the timeliness of the work as well as the legal sufficiency of the written decision.
Page 7 - The Commissioner


When we asked HODs to highlight some of the training that was most beneficial to the
GSs, their responses were very similar to the GSs:
      •   Labor relations management,
      •   Performance Assessment and Communication System (PACS), 13 and
      •   Decision writer training program.

GS SATISFACTION WITH THE THREE-PHASE TRAINING PROGRAM

About 76 percent of the 220 GSs who participated in all or part of the three-phase
training said it met their expectations (see Figure 3). However, one-third of the
respondents said the training was not provided at a time when it had the most impact on
their ability to perform their duties. Furthermore, only a little more than half felt they had
enough time to complete all phases of the training.

          Figure 3: Responses to Questions about Expectations and Timeliness
                        Under the Three-Phase Training Program
                                 (220 Respondents to Each Question)
                                                                                  100%

                      24%                                                         80%
                                          34%
                                                               42%
                                                                                  60%

                                                                                  40%
                     76%                  66%                                             No
                                                               58%                20%
                                                                                          Yes
                                                                                  0%


              Did the training    Was the training       Did you have
                meet your        provided at a time     enough time to
              expectations?       when it had the     complete the three-
                                  most impact on       phrase training?
                                    your duties?

Training Expectations

Of the 24 percent of GSs who replied that the training did not meet their expectations,
53 GSs provided comments. Of the 53 respondents, 21 had either not taken the three-
phase training because it was not available when they became a new GS or were
currently completing it. Ten GSs commented that their HODs did not inform them about
the phases and therefore they took training phases out of sequence or did not take
certain phases at all. For example, one GS commented, “I was not instructed to

13
     PACS is the Agency’s three-tier rating system for employee performance appraisals.
Page 8 - The Commissioner


complete the first two phases of training, before I attended phase three.” Another GS
stated, “I wasn’t told about the three phases until I went to formal classroom training, I
contacted my Regional Office when I returned to request a mentor and they never
responded.”

Timely Training

Of the 34 percent of GSs who stated the three-phase training program was not timely in
terms of their duties, 75 provided comments. Of those commenting, 27 GSs said
(1) they were either uninformed about the various phases that made up the training, so
they missed parts of the training, (2) they took it out of sequence, or (3) the training was
not offered at the right time to most impact their duties. For example, one GS said, “I
had been on the job two years. It may have helped to have completed training earlier.”
Another five GSs said they took the three-phase classroom training out of sequence,
with three of these GSs stating they attended the classroom training right after they
started on the job. One of the GSs who attended the class during his first week
explained that with little on-the-job experience, he was unable to understand much of
the classroom instruction. A second GS from this group stated that he was unaware of
the first and second phases of the training until he attended the last phase, which is the
classroom training. 14

HODs are required to conduct an orientation with the new GSs when they begin their
employment in the hearing office as part of Phase One. During the orientation, the
HODs are required to inform the GSs about the three-phase training, phase sequences,
and related curriculum. In addition, HODs assign to each new GS a mentor during
Phase One to ensure the comprehension and completion of each required course. The
GS and the mentor also sign certificates to verify completion of each course. These
certificates are later sent to the regional office. An additional certification stating the GS
has been made aware of all training requirements, including the proper sequence of
training, may improve GS training participant awareness.

Time to Complete Training

Of the 42 percent of GSs who stated they did not have enough time to complete the
three-phase training program, 87 provided comments. Thirty-six GSs responded that
meeting the job’s daily demands prevented them from completing some, or all, of the
first two phases of training. For example, one GS stated, “It has been very hard to stay
on pace. The GS position is extremely demanding. Oftentimes the training
requirements seem to take away from the ability to perform my job, rather than assist in
performing it.” A total of 11 GSs said no one had advised them of the various phases of
the training or mentors met with them infrequently to discuss the progress of the
training.



14
  ODAR managers explained that their goal is to provide the GS training in sequence. However, when
they receive their budget allocation often determines when the classroom training can be given to GSs.
Page 9 - The Commissioner


GS Satisfaction with Phase One

Phase One of the three-phase training program begins as soon as the new GS joins the
hearing office. New GS orientation occurs during the first month the GS is on duty,
while the GS works closely with the HOD, and a mentor 15 is assigned to work with the
GS for the next 12 to 18 months. In this phase, the GS is expected to learn
approximately 40 topics, including region-specific policies, arranging for appropriate
computer profile and access, discussing critical labor-relations issues, and defining the
scope of the new manager’s responsibilities. The GS is also taught the timetable to
complete the three-phase GS training program.

Of the GS respondents, 97 percent was either satisfied or did not state dissatisfaction
with the Phase One training, with 22 percent being “very satisfied” (see Table 4).

                     Table 4: GS Satisfaction with Phase One Training
                                       (183 Responses)
                               Responses                                 Percent
             Very Satisfied                                                22
             Satisfied                                                     58
             Neither Satisfied nor Dissatisfied                            17
             Dissatisfied                                                   3
             Very Dissatisfied                                              0

We received 54 additional comments about how to improve the Phase One training.
Slightly less than half of the respondents thought HODs needed to convey the structure,
content, and access to the Phase One training more effectively. Others felt the
relationship between the mentor and employee was ineffective because they needed
more one-on-one training with the mentor or they had not been assigned a mentor.
One GS commented that clearer instructions about what is expected from the mentor-
employee relationship would help. Others thought shorter online lessons would improve
the program.

GS Satisfaction with Phase Two (Online Training)

Under Phase Two, a GS spends approximately 75 hours to complete the mandatory
topics and should be accomplished within a 12-month period. The mentor 16 helps
the GS create a workable timeline to achieve this goal. The training activities include
assigned reading, VODs, and online training courses covering such topics as managing
the decision writing workload, employee conduct, and the SSA/AFGE National
Agreement.



15
  The role and responsibilities of the GS mentor are accessible via the ODAR Hearing Operation
Leadership and Management Training Website.
16
     Ibid.
Page 10 - The Commissioner


Of the 143 GS respondents, 94 percent was either satisfied or did not state
dissatisfaction with the Phase Two training, with 21 percent being “very satisfied”
(see Table 5).

          Table 5: GS Satisfaction with Phase Two Training - Online Training
                                        (143 Responses)
                                Responses                              Percent
                 Very Satisfied                                          21
                 Satisfied                                               55
                 Neither Satisfied nor Dissatisfied                      18
                 Dissatisfied                                             6
                 Very Dissatisfied                                        0

We received 50 comments about how to improve Phase Two training. Over one-third of
respondents commented that their job duties did not allow enough time to fully
participate in the Phase Two training or said the instructional material online was too
lengthy. They felt that on-the-job training and additional time with the mentor would
have helped them perform their duties. Some of the comments from GSs included the
following.
     •   “It is hard to do Phase Two while supervising an office.”
     •   “The GS position is probably best learned through on-the-job experience.”
     •   “The VODs need to be shorter, more practical and less theoretical.”

Five GSs commented that hyperlinks to all necessary training material did not work.
However, another GS noted, “Excellent reference material.”

GS Satisfaction with Phase Two (Mentoring)

During Phase Two, a mentor works with the new GS to complete the online and VOD
training, keeps them on track with training requirements, and discusses each subject
area after completion. The mentor also verifies that all training activities are completed.
Many mentors and their assigned GSs are not always in the same hearing office. As a
result, most of their communication is by telephone. Some mentors make themselves
available by telephone during working hours whenever the GS needs practical advice.
Others prefer to schedule meetings to hold training discussions with the GS or do
both. 17

Of the 136 GS respondents, 89 percent was either satisfied or did not state
dissatisfaction with the Phase Two mentoring training, with 29 percent being “very
satisfied” (see Table 6).



17
  The mentor-protégé relationship may last as long as both parties find it is useful, but ODAR
recommended that it not exceed 18 months.
Page 11 - The Commissioner


              Table 6: GS Satisfaction with Phase Two Training - Mentoring
                                       (136 Responses)
                               Responses                                  Percent
             Very Satisfied                                                 29
             Satisfied                                                      34
             Neither Satisfied nor Dissatisfied                             26
             Dissatisfied                                                    8
             Very Dissatisfied                                               3

Sixty-two GSs provided comments on the mentoring training. Thirteen GSs said they
had a positive experience with the mentoring program and it needed no improvement.
For example, one GS commented, "My mentor was excellent, I could ask anything, this
was the best part of the training program. . . Having a mentor from another office is
great. It provides someone to bounce off ideas who are not in the direct chain of
command." 18

However, almost half of the GSs who responded stated they had to overcome barriers
to communicate with their mentor or did not have a mentor. 19 For example, one GS
commented that the physical distance between the mentor and the protégé limited
"interaction to situational problems." Another GS noted that if the mentor is in another
hearing office, ". . . [the GSs] and her mentor have a hard time getting corresponding
times in our schedules for discussion,” and she suggested managers should “. . . set
times for mentors to speak to their protégé.”

Sixteen GSs expressed barriers to communicating with their mentors including
infrequent or no discussions with mentors. In at least one case, the GS stated that
although he was very satisfied with his mentor, “…to find time to actually communicate
with him is almost impossible.” One respondent said, “There should not be weeks
before you hear back from your mentor."

GS Satisfaction with Phase Three

In the Phase Three training, 20 GSs participate in required classroom training that
expands on many of the topics covered in the previous training and mentoring. 21 The


18
  The role and responsibilities of the GS mentor are accessible via the ODAR Hearing Operation
Leadership and Management Training Website.
19
  In a 2011 audit of Training of New Administrative Law Judges in the Office of Adjudication and Review
(A-12-11-11126), we reviewed the ALJ three-phase training program for newly hired ALJs. We found a
similar issue in that report, with several ALJs who also said they were not assigned a mentor or their
mentor had little time for them.
20
     ODAR Hearing Operation Leadership and Management Training Website.
21
   See Appendix F for the GS 2-week classroom sessions held from March 2009 to March 2012. During
this period, 300 GSs were trained. Also, see Appendix G for the March 2012 classroom Agenda.
Page 12 - The Commissioner


students take part in break-out groups and group discussions. Topics include
leadership, management information, employee equal opportunity issues, performance
management, employee evaluations, and problem solving.

Of the 136 GS respondents, 95 percent was either satisfied or did not state
dissatisfaction with the Phase Three training, with 43 percent being “very satisfied”
(see Table 7).

                      Table 7: GS Satisfaction with Phase Three Training
                                         (136 Responses)
                                 Responses                                    Percent
              Very Satisfied                                                    43
              Satisfied                                                         44
              Neither Satisfied nor Dissatisfied                                 8
              Dissatisfied                                                       4
              Very Dissatisfied                                                  1

Fifty-eight GSs commented on the Phase Three classroom training. Fifteen praised the
training, with one GS stating, “This was the most satisfying part of the GS training.”
Among the other responses, seven GSs felt they attended the classroom training too
early or needed more time to complete the earlier phases before attending the class.
For example, one GS attended the Phase Three classroom training on their first day on
the job and said he could not understand most of the lectures. 22 Ten GSs said the
classroom curriculum should cover more ODAR workload reporting instruction, such as
Case Processing and Management System (CPMS) and Disability Adjudication
Reporting Tools (DART) 23 reports. Seven respondents said the classroom training
should be longer.

GS SATISFACTION WITH STAFF TRAINING

Of the GS respondents, about 70 percent was at least satisfied or did not express
dissatisfaction with the training the staff received. 24 However, 11 percent of the GSs
was dissatisfied with lead case technician (LCT) training25 mainly because they thought


22
  The Phase Three classroom training may be available only a few times per year. See Appendix F for a
copy of the training schedule.
23
  CPMS allows ODAR components to control and process electronic disability cases and produce
management information reports. DART assists hearing offices with ad hoc reports that contain a wide
variety of management information and workload listings designed to supplement CPMS reporting
capabilities.
24
     See Appendix I for the various positions covered in the questionnaire.
25
   ODAR reported that they are instituting a mentor program for Senior Case Technicians (SCT), modeled
on the ALJ mentor program. They envision these materials will serve as reference and supplemental
training material for LCTs.
Page 13 - The Commissioner


LCTs needed additional training or that ODAR should develop a formal national training
program for them. We discuss the GS responses on each position in Appendix H and
available staff training in Appendix I.

CONCLUSION AND RECOMMENDATIONS
In general, the majority of the GSs stated they were sufficiently trained to perform their
duties. In addition, the vast majority of HODs overseeing GSs similarly stated the GSs
in their offices were sufficiently trained. However, 16 percent of the GSs stated they
needed additional training. We also found that the majority of the GSs was relatively
new to their position and stated they would benefit from additional management training
to handle the requirements of the job. The majority of GSs stated the three-phase
training program met their expectations and provided training when it had the most
impact on their ability to perform their work. However, about 42 percent of GSs stated
they needed more time to complete the three-phase training, with some GSs noting
daily job demands impacted their ability to efficiently complete the three-phase training.
We also received a number of comments from GSs about a lack of information about
the three-phase training, and some GSs stated they took the training out of sequence.
Finally, we believe the questionnaire responses highlighted a number of training issues
that may be of interest to ODAR managers as they plan future training activities.

To ensure GSs have sufficient training to maintain their requisite skills and successfully
perform their duties as first-line supervisors, we recommend SSA:

1. Develop and offer courses for GSs interested in additional training in those areas
   identified by questionnaire respondents, such as labor and employee relations.

2. As part of the orientation of new GSs, require both the HOD and new GS to certify
   that they have been informed about the three-phase GS training program and the
   proper sequence of each phase.

3. Remind HODs of the importance of setting aside sufficient time for new GSs to
   participate in the three-phase GS training program.

AGENCY COMMENTS
SSA agreed with the recommendations (see Appendix J). The Agency also provided
technical comments, which we incorporated, as appropriate.




                                         Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Hearing Office Organization Chart

APPENDIX C – Hearing Office Position Descriptions

APPENDIX D – Scope and Methodology

APPENDIX E – Group Supervisor and Hearing Office Director Questionnaires

APPENDIX F – Dates and Number of Group Supervisors Attending the GS Phase
            Three Classroom Training March 2009 to March 2012

APPENDIX G – Phase-Three Training Agenda for Newly Hired Group Supervisors

APPENDIX H – Group Supervisor Satisfaction with Staff Training

APPENDIX I – National Training Requirements for Hearing Office Staff

APPENDIX J – Agency Comments

APPENDIX K – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
AA            Attorney Advisor
AFGE          American Federation of Government Employees
CIT           Case Intake Technician
CPMS          Case Processing and Management System
CT            Case Technician
CR            Contract Representative
DART          Disability Adjudication Reporting Tools
GS            Group Supervisor
HOD           Hearing Office Director
GETA          Government Employees Training Act
LCT           Lead Case Technician
ODAR          Office of Disability Adjudication and Review
OIG           Office of the Inspector General
OCALJ         Office of the Chief Administrative Law Judge
OTR           On-the-Record
PA            Paralegal Analyst
PACS          Performance Assessment and Communication System
Pub. L. No.   Public Law Number
SAA           Senior Attorney Advisor
SCT           Senior Case Technician
SSA           Social Security Administration
U.S.C.        United States Code
VOD           Video-on-Demand
VSU           Virtual Screening Unit
                                                                     Appendix B

Hearing Office Organization Chart

       Chief Administrative          Deputy Chief
           Law Judge                    ALJ


                                     Regional Chief
                                          ALJ


                                     Hearing Office
                                       Chief ALJ



      ALJ         ALJ            ALJ            ALJ            ALJ         ALJ



                                  Hearing Office
                                    Director




                           Senior                Hearing                Admin.
   Group                                          Office               Assistant
                          Attorney
 Supervisor                                      Systems                 and
                          Advisors
                                               Administrator          Receptionist




  Attorney         Lead Case             Case Intake
  Advisors        Technicians,          Technician and                 = Management
    and           Senior Case              Contact
  Paralegal       Technicians,          Representative
  Analysts          and Case
                  Technicians
                                                                       Appendix C

Hearing Office Position Descriptions
In table C-1 we have provided a description of non-managerial hearing office positions
the Group Supervisor (GS) supports or supervises.

                Table C-1: Non-Managerial Hearing Office Positions
               Title                                  Position Description
 Senior Attorney Advisors (SAA)     The SAA renders professional legal advice and
                                    assistance to the administrative law judges (ALJ) in
                                    prehearing development and preparing cases for
                                    hearing, post-hearing development, and other post-
                                    hearing actions. They write comprehensive decisions in
                                    the most legally complex cases for ALJs. They also
                                    screen cases and adjudicate fully favorable on-the-
                                    record (OTR) decisions. SAAs can request additional
                                    evidence and prior files or ask claimant representatives
                                    for updated medical evidence. SAAs prepare fully
                                    favorable decisions and have the authority to sign the
                                    decision.
 Attorney Adviser (AA) and          AAs and PAs render advice and assistance to the
 Paralegal Analyst (PA)             ALJ in pre-hearing development and preparing
                                    cases for hearings, post-hearing development, and
                                    other post-hearing actions. They assist the ALJ in
                                    formulating the case decision and evaluate all
                                    program, legal, and medical aspects of the case,
                                    including exhibits, all testimony, all pertinent laws
                                    and regulations, and precedent court cases.
                                    Following the analysis, research, and development
                                    of the case, they formulate and draft
                                    comprehensive decisions for the ALJ.
 Lead Case Technician (LCT)         The LCT leads the work of three or more
                                    employees engaged in developing and processing
                                    a request for hearing from its receipt in the hearing
                                    office to its completion. The LCT processes the
                                    more complex hearing cases where analysis of
                                    pertinent issues and interpretation of the provisions
                                    of laws, regulations, rulings, precedents, policies,
                                    procedures and guidelines is necessary.
 Senior Case Technician (SCT)       SCTs process the more complex cases. They
                                    prepare case summaries by preparing narrative
                                    outlines of information from all documents. The
                                    outlines reflect the claimant’s prior medical history,
                                    the treatment undertaken, and any conflicting
                                    medical evidence.

                                          C-1
             Title                             Position Description
Case Technician (CT)           The CT reviews and analyzes a variety of medical
                               and legal documents, records, and evidence to
                               ensure case files are received and developed in
                               accordance with legal and regulatory authorities.
                               The CT also schedules cases for hearing in
                               accordance with legal and regulatory requirements
                               and coordinates time and date of the hearing with
                               claimants, representatives, expert witnesses, and
                               hearing reporters.
Case Intake Technician (CIT)   The CIT serves in a specialized case assistant
                               position, where a majority of the work involves
                               master docket duties. At the master docket stage,
                               the CIT develops and processes a case from its
                               receipt in the hearing office to its completion. They
                               identify the various requests for hearing documents
                               and determine whether appropriate filing criteria
                               are met. They assign cases to ALJs so claims can
                               be processed effectively and timely. They review
                               and analyze the case to ensure sufficiency of
                               evidence and the case is ready to hear. In
                               addition, the CIT contacts the claimant to secure
                               current evidence of record and timely processes
                               incoming and outgoing mail at the master docket
                               level.
Contract Representative (CR)   The CR dispenses information to the public, in
                               person, or by telephone; explains the legal
                               provisions, regulations, and procedural
                               requirements for obtaining benefits under the
                               Social Security program as they relate to a specific
                               case; and explains the application of regulatory
                               provision and the bases for the Agency’s
                               determinations in individual cases.




                                     C-2
                                                                       Appendix D

Scope and Methodology
To accomplish our objective, we:

   •   Reviewed applicable Federal laws and regulations and pertinent Office of
       Personnel Management training policies.

   •   Reviewed the elements of the Office of Disability Adjudication and Review’s
       (ODAR) three-phase training program and basic core curriculum for new group
       supervisors (GS) to complete in their first 1.5 years.

   •   Reviewed additional GS training at ODAR, other than the three-phase training.

   •   Reviewed the training for the hearing office staff, including the mandatory
       national training.

   •   Interviewed management and staff at ODAR’s Office of the Chief Administrative
       Law Judge (OCALJ) and the Division of Training and Human Resources at
       Headquarters in Falls Church, Virginia.

   •   Interviewed the Hearing Office Director (HOD) in the Norfolk, Virginia, Hearing
       Office and reviewed the questionnaire with two hearing office GSs.

   •   Created an online questionnaire for GSs and HODs to obtain their views on the
       quality and timing of GS training and determine whether GSs were provided the
       necessary instruction to successfully perform their duties. We sent the
       questionnaire to the GSs and HODs employed at the Agency as of March 2012.
       We also sent three emails to all the GSs and HODs reminding them to complete
       the questionnaire.

   •   Analyzed and compiled the data from the online GS and HOD questionnaires.

   •   Shared our results with ODAR managers and obtained their comments.

The entity audited was the Office of the Deputy Commissioner for Disability Adjudication
and Review. We conducted this audit from February through July 2012, in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.
                                                                       Appendix E

Group Supervisor and Hearing Office Director
Questionnaires
                       Group Supervisor Questionnaire

The Office of the Inspector General is conducting a review of the Office of Disability
Adjudication and Review’s (ODAR) training programs for Group Supervisors (GS). We
would like your feedback in order to review whether the training prepares you with the
knowledge, skills, and abilities to perform your job. The questionnaire is designed to
guide you based on your different training experiences, which depends on when you
were hired.

This survey should take approximately 10 -15 minutes. Your responses will be held in
the strictest confidence. We thank you in advance for your thoughtful feedback.

Background:

1. Prior to taking your position as a GS where you were employed?

      ODAR.
      SSA component other than ODAR.
      Other (for example, another Federal Agency, private industry):

    a. Prior position title:
    b. Name of component/office, if appropriate (for example, SSA/ODAR/Dallas
       Hearing Office):

2. How long have you been in a GS position?

       Less than 1 year.
       1 year to less than 5 years.
       5 years to less than 10 years.
       10 years to less than 15 years.
       More than 15 years.




                                          E-1
Three-Phase Training Program:

3. Have you participated in any part of the three phases of ODAR’s Three-Phase
   Group Supervisor Training program?

      Yes
      No – Please skip to Question 9.

4. Did you participate in any part of the Phase One training, which involves an in-depth
   orientation, instructional discussions with management, and on-line training?

      Yes – Please go to Questions a and b.
      No – Please skip to Question 5.

    a. How satisfied were you with the content of the Phase One training?

              Very satisfied
              Satisfied
              Neither satisfied nor dissatisfied
              Dissatisfied
              Very dissatisfied

    b. Are there any areas of the Phase One training that could be improved? If so,
       please discuss.

5. Have you participated in the Phase Two training courses, which consist of 19
   subject areas involving reading, viewing videos on demand (VOD), and completing
   on-line training courses?

      Yes – Please go to Questions a and b.
      No – Please skip to Question 6.

    a. How satisfied were you with the quality and content of the Phase Two training
       on-line?

              Very satisfied
              Satisfied
              Neither satisfied nor dissatisfied
              Dissatisfied
              Very dissatisfied

    b. Are there any areas of the Phase Two on-line training that could be improved?
       If so, please discuss.




                                            E-2
6. Have you participated in the Phase Two Mentor Program, which pairs a new GS
   with an experienced mentor to provide advice, coaching, and expertise during
   Phase Two?

      Yes – Please go to Questions a and b.
      No – Please skip to Question 7.

    a. How satisfied have you been with the quality of the Mentor Program?

              Very satisfied
              Satisfied
              Neither satisfied nor dissatisfied
              Dissatisfied
              Very dissatisfied

    b. Are there any areas of the Mentor Program that could be improved? If so,
       please discuss.

7. Have you participated in Phase-Three training, which consists of one week of
   classroom training with instructional training material available on the GS training
   website?

      Yes – Please go to Questions a and b.
      No – Please skip to Question 8.

   a. How satisfied were you with the quality and content of classroom training and
      instructional material in the Phase-Three training?

            Very satisfied
            Satisfied
            Neither satisfied nor dissatisfied
            Dissatisfied
            Very dissatisfied

   b. Are there any areas of the Phase-Three training coverage that could be
      improved? If so, please discuss.

8. Overall, was your experience with the Three-Phase training consistent with your
   expectations?

      Yes
      No




                                            E-3
   a. Did you have enough time to complete each of the three phases of training
      discussed above?

             Yes
             No – If no, please explain what portion required more/less time.

   b. Was the Three-Phase training provided at a time when it had the most impact on
      your ability to perform your assigned duties?

            Yes
            No – If no, please explain when the training would have been more helpful.

Other Training:

9. Have you received training other than the Three-Phase Group Supervisor
   Training that has assisted with your development as a GS in ODAR in the last five
   years?

      Yes – Please go to Question a.
      No – Please skip to Question 10.

   a. Please name the types of training/courses that benefited you most.

10. Do you believe you have been provided with sufficient training to properly perform
   your duties as a GS?

      Yes
      No
      Still undergoing the Three-Phase training.

11. If ODAR was to provide you with additional training, what areas would benefit you
    most (please select all that apply)?

      Management Information (CPMS/DART data analysis)
      Employee Relations
      Labor Relations
      Performance Management
      Equal Employment Opportunity (EEO)
      Systems Security
      Electronic Business Process (eBP)
      Transitional Leadership for Supervisors
      Other – Please explain.




                                          E-4
12. Who do you discuss your training needs with at the hearing office?

       Hearing Office Chief ALJ
       Hearing Office Director
       Other party (please name):
       No one.

Other Staff Training:

13. Senior Attorney Advisor

   Overall, how satisfied are you with the training received by your senior attorney
   advisors within the past two years?

          Very Satisfied
          Satisfied
          Neither Satisfied nor Dissatisfied
          Dissatisfied
          Very Dissatisfied
          No training within 2 years
          Not Applicable – for example, this Hearing Office does have this position.

      a. Please let us know if you have any comments about the training the senior
         attorney advisors receive in your hearing office.

14. Attorney Advisor/Paralegal Specialist

   Overall, how satisfied are you with the training received by your attorney
   advisor/paralegal specialists within the past two years?

          Very Satisfied
          Satisfied
          Neither Satisfied nor Dissatisfied
          Dissatisfied
          Very Dissatisfied
          No training within 2 years
          Not Applicable – for example, this Hearing Office does have this position.

      a. Please let us know if you have any comments about the training the attorney
         advisors/paralegal specialists receive in your hearing office.




                                           E-5
15. Lead Case Technicians

   Overall, how satisfied are you with the training received by your lead case
   technicians within the past two years?

         Very Satisfied.
         Satisfied.
         Neither Satisfied nor Dissatisfied.
         Dissatisfied.
         Very Dissatisfied.
         No training within 2 years.
         Not Applicable – for example, this Hearing Office does have this position.

      a. Please let us know if you have any comments about the training the lead case
         technicians receive in your hearing office.

16. Senior Case Technicians

   Overall, how satisfied are you with the training received by senior case technicians
   within the past two years?

         Very Satisfied.
         Satisfied.
         Neither Satisfied nor Dissatisfied.
         Dissatisfied.
         Very Dissatisfied.
         No training within 2 years.
         Not Applicable – for example, this Hearing Office does have this position.

      a. Please let us know if you have any comments about the training the senior
         case technicians receive in your hearing office.

17. Case Technicians

   Overall, how satisfied are you with the training received by case technicians within
   the past two years?

         Very Satisfied.
         Satisfied.
         Neither Satisfied nor Dissatisfied.
         Dissatisfied.
         Very Dissatisfied.
         No training within 2 years.
         Not Applicable – for example, this Hearing Office does have this position.




                                           E-6
      a. Please let us know if you have any comments about the training the case
         technicians receive in your hearing office.

18. Contact Representative

   Overall, how satisfied are you with the training received by the contact
   representative within the past two years?

          Very Satisfied.
          Satisfied.
          Neither Satisfied nor Dissatisfied.
          Dissatisfied.
          Very Dissatisfied.
          No training within 2 years.
          Not Applicable – for example, this Hearing Office does have this position.

      a. Please let us know if you have, any comments about the training the contact
         representatives receive in your hearing office receive.

19. Intake Representative

   Overall, how satisfied are you with the training received by the intake representative
   within the past two years?

          Very Satisfied.
          Satisfied.
          Neither Satisfied nor Dissatisfied.
          Dissatisfied.
          Very Dissatisfied.
          No training within 2 years.
          Not Applicable – for example, this Hearing Office does have this position.

      a. Please let us know if you have any comments about the training the intake
         representatives receive in your hearing office receive.

20. Please, let us know if you have any other comments with regard to your training or
    the training of those you supervise.



                            We appreciate your response.




                                           E-7
                    Hearing Office Director Questionnaire

The Office of the Inspector General is conducting a review of ODAR’s training programs
for Group Supervisors (GS). As the Hearing Office Director (HOD) and first line
supervisor to the GSs, we would like your feedback in order to review whether the
training prepares the GSs with the knowledge, skills and abilities to perform their job.
This questionnaire covers general questions about your satisfaction with the training
GSs receive, both prior to and after the establishment of the Three-Phase Group
Supervisor Training program.

This survey should take approximately 5 minutes to complete. Your responses will be
held in the strictest confidence. We thank you in advance for your thoughtful feedback.

1. Did at least one of your GSs participate in the Three-Phase Group Supervisor
   Training, which consists of on-line modules, mentoring, and classroom attendance,
   designed to be helpful in the performance of the GS’s assigned duties?

      Yes – Please go to Questions a and b.
      Not applicable – The GSs in the office arrived prior to the development of the
      Three-Phase Group Supervisor Training. Please go to Question 2.
      No – Please discuss and then go to Question 2.

      a. In your opinion, did the different methods of training available under the
         Three-Phase Group Supervisor Training, such as orientation, on-line
         modules, mentoring and classroom attendance, provide your GSs with the
         requisite skills to perform their assigned duties?

             Yes
             No – Please discuss.

      b. Was the Three-Phase Group Supervisor Training provided at a time when
         it had the most impact on the GS’s ability to perform their assigned duties?

             Yes
             No – Please discuss.

2. Has your office, the region, or Headquarters provided other training opportunities to
   the GSs in your office in the past two years?

      Yes – Please go to Question a.
      No – Please discuss and then go to Question 3.

      a. Please highlight some of the courses you believe have been the most useful
         to your GSs.



                                           E-8
How satisfied have you been with the training that the GSs receive in your hearing
office, both the Three-Phase Group Supervisor Training and other training?

      Very satisfied
      Satisfied
      Neither satisfied nor dissatisfied
      Dissatisfied – Please go to Question a.
      Very dissatisfied – Please go to Question a.
      Not applicable – The GSs in the office have received no training.

      a. If you are in any way dissatisfied with either the in-house or the national
         training, please explain your reasons.

3. Do you periodically meet with your GSs to discuss their training needs and
   development?

      Yes
      No – Please discuss.

4. Would you recommend additional training in any of the areas listed below for the
   GSs in your office?

      Management Information (CPMS/DART data analysis)
      Employee Relations
      Labor Relations
      Performance Management
      Employment Equal Opportunity (EEO)
      Systems Security
      Electronic Business Process (eBP)
      Transitional Leadership for Supervisors
      Other – Please explain.

5. Please let us know if you have any other comments with regard to GS training.


                             We appreciate your response.




                                           E-9
                                                                        Appendix F

Dates and Number of Group Supervisors
Attending Phase Three Classroom Training
March 2009 to March 2012
The Office of Disability Adjudication and Review (ODAR) designed the Phase Three
classroom training for all newly appointed Group Supervisors (GS). ODAR holds GS
training in Falls Church, Virginia, at its National Training Center. The classroom training
provides new GSs with basic hearing office management skills and necessary
management information as well as critical information resources. It covers a range of
information from the structure of the Social Security Administration and ODAR-specific
process. Between March 2009 and March 2012, 300 GSs attended GS Phase Three
classroom training in Falls Church, Virginia.

                   Table F-1: Dates and Number of GSs Trained in
                                Phase Three Courses
                                                      Number of Group
                     Date of Training
                                                     Supervisors Trained
            March 9 to 13, 2009                               30
            May 4 to 8, 2009                                  31
            January 25 to 29, 2010                            19
            May 24 to 28, 2010                                30
            August 23 to 27, 2010                             31
            April 4 to 8, 2011                                27
            June 5 to 11, 2011                                29
            August 29 to September 2, 2011                    24
            September 26 to 30, 2011                          18
            November 15 to 19, 2011                           28
            March 12 to 16, 2012                              33
            Total                                            300
                                                                 Appendix G

Phase Three Training Agenda for Newly Hired
Group Supervisors
                                    Day 1
      Time                      Topic                           Presenter
8:00 - 9:00     Welcome, Class Overview and            Terry Calcutt
                Introductions                          Cadre
9:00 - 10:00    Role of the Group Supervisor           Carrie Roland
                                                       Erin Weaver
10:00 - 12:00   Systems Security                       Talinthia Bolding
                                                       Robert O’Connor
12:00 – 1:00    Lunch
1:00 – 4:00     Performance Management                 Cherl Bertram
                [Module 4]                             Andrew Coffron
4:00 - 4:30     Chief ALJ Message                      Judge Bice
4:30 – 5:00     Balancing Workloads/Workload           Cadre
                Strategic Planning – A more balanced
                approach to case processing/Meeting
                weekly goals
[5.00]          Dismiss/Feedback
                                     Day 2
8:00 - 12:00    Workload Management [module 9]              Marianne Blair
                   - Assignment of Work [Module 13]         Robert O’Connor
                   - Managing in an Electronic World        Carrie Roland
                   - Trend Analysis                         Erin Weaver
12:00 - 1:00    Lunch
1:00 - 5:00     MI Exercises                                Marianne Blair
                                                            Robert O’Connor
                                                            Carrie Roland
                                                            Erin Weaver
[5:00]          Dismiss/Feedback
                                     Day 3
8:00 - 11:30    Employee Relations                          Deborah Giesen
                [Module 7]                                  Gina Pesaresi
11:30 – 12:30   Lunch
12:30 – 1:30    Employee Relations                          Deborah Giesen
                [con’t]                                     Gina Pesaresi
1:30 - 3:30     Labor Relations                             Deborah Giesen
                [Module 8]                                  Gina Pesaresi




                                       G-1
                               Day 3 (Continued)
      Time                          Topic                    Presenter
3:30 – 5:00     Effective Leadership in Public Service   Judge Cristaudo
[5:00]          Dismiss/Feedback
                                      Day 4
8:00 - 8:30     Wellness Presentation                    Judge Cristaudo
8:30 – 10:00    Avoiding the Most Common EEO             Clary Simmonds
                Complaints [Module 5]
10:00 – 11:00   EEO Complaints: OGC Perspective          Clary Simmonds
11:00 - 12:30   Management Philosophy                    Glenn Sklar
12:30 - 1:30    Lunch
1:30 - 2:00     Practical application of MI (quiz)       MI Team
2:00- 5:00      Inbox Exercise                           Cadre
[5:00]          Dismiss/Feedback
                                    Day 5
8:00 - 8:30     Soft Skills Discussion                   Cadre
8:30 – 9:30     Inbox Debriefing                         Terry Calcutt
                                                         Cadre
9:30 – 10:00    eBP Refresher                            Cadre
10:00 – 11:00   Cadre Panel Q&A                          Cadre
11:00 - 12:00   Wrap Up and Feedback                     Terry Calcutt
[12:00]         Dismiss




                                       G-2
                                                                                                  Appendix H

Group Supervisor Satisfaction with Staff
Training
We asked the group supervisors (GS) to evaluate the training the hearing office staff
received. Of the GS respondents, about 70 percent was at least satisfied or did not
express dissatisfaction with the training the staff received (see Table H-1). However,
11 percent of the GSs was dissatisfied with lead case technician (LCT) training. In
addition, over 25 percent of the GS responded that the LCTs, case intake technicians
(CIT), and contact representatives had not received any training over the last 2 years. 1

                        Table H-1: GS Satisfaction with Staff Training
                                              (269 respondents)1




                                                                                                  Last 2 Years
                                                                    Dissatisfied




                                                                                   Dissatisfied



                                                                                                  No Training
                                                Unsatisfied




                                                                                                                 Applicable
                                                 Satisfied/
                      Satisfied



                                  Satisfied




                                                  Neither
                        Very




                                                                                      Very




                                                                                                                    Not
     Responses



    Senior Attorney
    Adjudicator        10         41              22                6                 2                   14              6
    Decision
    Writer
           2           12         55              19                5                 1                     7             2
    Lead Case
    Technician          6         31              21                10                1                   26              4
    Senior Case
    Technician         12         53              19                6                 2                     6             2
    Case
    Technicians         4         30              20                6                 4                   19             16
    Case Intake
    Technician          7         26              23                3                 2                   28             12
    Contact
    Representative      5         28              17                8                 1                   28             13

 Average                8        38          20            6             2          18                                    8
Note 1: All figures are expressed as percentages, and numbers do not add to 100 percent due to
rounding.
Note 2: Decision writer includes Attorney Advisor and Paralegal Analyst.




1
 ODAR reported that they are instituting a mentor program for Senior Case Technicians, modeled on the
ALJ mentor program. ODAR envisions these materials will serve as reference and supplemental training
material for LCTs.


                                                              H-1
We received comments from GSs regarding training for staff. The most responses were
about the LCT position. Below are some of the GS comments about training their staff
had or needed.

Senior Attorney Advisors (SAA)

We received 70 comments.

   •   Not aware of any formal training made to SAAs.
   •   Each office uses SAAs per local needs - there are no consistent expectations for
       the position.
   •   I would like to see them have more training. They are expected to mentor other
       people, so training would be helpful.

Decision Writers

We received 72 comments.

   •   The new writers are getting training. However, refresher training for senior
       writers is limited.
   •   The training should be held either right as the writers are starting on the job, or
       training, if held later, should be for more complicated disability cases.
   •   The training should be geared towards making them senior attorneys.

Lead Case Technicians (LCT)

We received 83 comments. Of these, 31comments related to the need for more LCT
training, such as:

   •   They should get national level training for the same reason Senior Attorney
       Advisors and Group Supervisors receive this training.
   •   I think leads should be allowed to receive intro training writing. I am disappointed
       that my lead has no option to advance in ODAR currently.

Senior Case Technicians (SCT)

We received 77 comments.

   •   Two SCTs both came back very knowledgeable from initial training.
   •   SCT's need more training on handling paper files, non-disability cases, and some
       other unusual cases. The SCTs who have come on board in the last four years
       haven't had adequate, consistent training.




                                                H-2
    •   I believe it would be much more cost effective and worthwhile to have agency
        specific ongoing SCT refresher training every couple of years, so that SCTs can
        remain connected with their job duties and not get stuck in a rut where they are
        no longer growing in their knowledge, skills, and abilities.

Case Technicians (CT)

We received 72 comments.

    •   It would be helpful to have more training for CTs. We hired a lot of veterans from
        the street without any background in Social Security.
    •   Other employees train them in the office. They need to have a class similar to
        the SCT class.
    •   An orientation and training package, which pertains to tasks performed by CTs,
        would be beneficial rather than having the majority of their orientation be hands
        on training.

Contact Representative (CR)

We received 56 comments.

    •   Our CRs and receptionist could use more training in all relative areas, customer
        service, telephone techniques, effective communication skills, etc. We do the
        best we can with the Government Employees Training Act (GETA) 2 funding, but
        that is normally only available to us once a year.
    •   The contact representatives would benefit from training that emphasized
        communication and interpersonal skills.
    •   More intensive customer service training should be given to all contact
        representatives.

Case Intake Technician

We received 50 comments.

    •   Refresher training would be helpful for Master Docket especially since there have
        been so many updates with the Remand projects and other areas of the intake
        process.
    •   Training for this position is not adequate. This is another complicated and crucial
        position. It takes quite a while to learn it.




2
  Pub. L. No. 89-507, 72 Stat. as amended. The Government Employees Training Act (GETA) was
signed into law in 1958 giving Federal agencies general authority for employee training. See also, 5
U.S.C. §§ 4101-4121.


                                                       H-3
•   They have received no training. This position should have an intensive training
    class established considering they are solely responsible for bringing cases into
    the office. If this is done incorrectly, it causes problems for the entire office.




                                            H-4
                                                                          Appendix I

National Training Requirements for Hearing
Office Staff
In Table I-1 we provide the hearing office training requirements established by the
Office of Disability Adjudication and Review’s (ODAR) Division of Training and Human
Resources.
         Table I-1: National Training Requirements for Hearing Office Staff
      Title      Mandatory                 National Training Requirements
                 Training?
Senior              No       There is no national training program for SAA’s. However,
Attorney                     many SAA’s have received 1 week of training in a national
Advisors                     training program entitled Virtual Screening Unit (VSU) where
(SAA)                        they receive instruction on how to screen cases and
                             adjudicate fully favorable on-the-record (OTR) decisions.1
                             SAA’s who are not actively adjudicating OTR cases, or did
                             not volunteer to serve on a VSU detail, can also take the
                             VSU training. The curriculum also involves the analysis and
                             development of the legal issues in the disability claim; review
                             of case law, circuit and district court cases; and other
                             disability case screening procedures.
Attorney             Yes     All AAs and PAs complete the national decision writer three-
Adviser (AA)                 phase training program. In Phase One, they view video-on-
and                          demand (VOD) and other online technical instructions, and
Paralegal                    witness a formal ALJ hearing. In Phase Two, they attend
Analyst (PA)                 classroom training for two weeks. In Phase Three, they view
                             additional VODs including analyzing credibility factors to
                             determine disability and evaluating musculoskeletal
                             impairments. ODAR reported it usually takes 6 weeks to
                             complete the formal training and an additional 3 to 4 months
                             of on-the-job and mentoring for the AAs and PAs to produce
                             quality draft decisions.
Lead Case            No      ODAR does not have a national training program for LCTs.
Technician                   Since most LCTs are promoted from the Senior Case
(LCT)                        Technician (SCT) or Legal Assistant (LA) position, they have
                             attended the LA three-phase training program earlier in their
                             career. They also have additional work experience on-the-
                             job that allows them to effectively lead the SCT and other
                             Case Technicians on their team.2




                                              I-1
       Title        Mandatory                    National Training Requirements
                    Training?
 Senior Case           Yes         All new SCTs are required to complete a national LA three-
 Technician                        phase training program (currently, just two phases as phase
                                                               2
 (SCT)                             three is being developed). In Phase One, SCTs watch
                                   VODs about the disability evaluation process and disability
                                   claims work-up using the electronic folder. In Phase Two,
                                   they attend 1 week of classroom training covering such topics
                                   as sequential evaluation, dismissals, and critical and dire
                                   need cases. They are also involved in hands on exercises to
                                   use electronic folder tools. After the formal training, they
                                   receive additional on-the-job training and mentoring.
 Case                   Yes        The CT position receives formal national training in the
 Technician                        hearing office. A training course agenda is available online
 (CT)                              with structured VOD assignments and other online training
                                   material. This training outlines 3 full days of instruction. The
                                   training material advises hearing offices to use the CT
                                   agenda to provide a national perspective to the training of
                                   CTs and suggests that each lesson be discussed with a
                                   manager or mentor after the trainee completes it.
 Case Intake            Yes        The CIT receives national training, using the same material
 Technician                        as the LA three-phase training program (see above). In
 (CIT)                             Phase One, they review the same VODs as the SCTs and
                                   LAs. However, in Phase Two, they undergo 1 week of
                                   classroom instruction geared toward their position with more
                                   emphasis on screening and docketing cases. In addition, all
                                   new CITs undergo at least 1 month of on-the-job training and
                                   mentoring.
 Contract                No        The CR does not receive any national training. However,
 Representative                    they normally receive at least 1 month of on-the-job training
 (CR)                              and mentoring.

Note 1: On August 9, 2007, the Social Security Administration issued an interim final rule permitting
SAAs to issue fully favorable OTR decisions thereby conserving ALJ resources for the more complex
cases that require a hearing.
Note 2: ODAR reported that they are instituting a mentor program for SCTs, modeled on the ALJ mentor
program. They envision these materials will serve as reference and supplemental training material for
LCTs.




                                                     I-2
                  Appendix J

Agency Comments
                                            SOCIAL SECURITY

MEMORANDUM


Date:      November 8, 2012                                                               Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Training and Development of Hearing Office
           Group Supervisors” (A-12-12-11240)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.


           Attachment




                                                              J-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“TRAINING AND DEVELOPMENT OF HEARING OFFICE GROUP SUPERVISORS”
(A-12-12-11240)


Recommendation 1

Develop and offer courses for group supervisors (GS) interested in additional training in those
areas identified by questionnaire respondents, such as labor and employee relations.

Response

We agree.

Recommendation 2

As part of the orientation for new GSs, require both the Hearing Office Director (HOD) and new
GS to certify that they have been informed about the three-phase GS training program and the
proper sequence of each phase.

Response

We agree.

Recommendation 3

Remind HODs of the importance of setting aside sufficient time for new GSs to participate in the
three-phase GS training program.

Response

We agree.




                                               J-2
                                                                         Appendix K

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Nicholas Milanek, Audit Manager, Falls Church Audit Office

Acknowledgments

In addition to those named above:

       Mary Ann Braycich, Auditor-in-Charge

       Rajula Chandran, Senior IT Specialist

       Brennan Kraje, Statistician

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-12-12-11240.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
